OIG Audit Report 99-26
Year 2000 Efforts at the Drug Enforcement Administration
Report No. 99-26
September 1999
Office of the Inspector General
SUMMARY
This report addresses DEA's Year 2000 efforts that relate to accurate reporting of mission-critical systems and assesses evidence supporting whether mission-critical systems are Year 2000 compliant.  Accurate identification and tracking of mission-critical systems are necessary to enable the Department and the Office of Management and Budget (OMB) to ensure an orderly completion of efforts to address the Year 2000 threat.  Consequently, it is essential that components document evidence supporting Year 2000 compliance assessments.
Our audit disclosed weaknesses in DEA's reporting of mission-critical systems and its evidence supporting mission-critical systems as Year 2000 compliant.  Specifically, we found:
a mission-critical system not tested and not reported to OMB and the Department
mission-criticality certifications, Independent Verification and Validation (IV&V) contractor assessment reports 1 , and compliance certifications not completed timely
compliance checklists not signed prior to the IV&V review
test plans and documentation either not prepared or lacking a DEA response to the IV&V contractor's concerns
certain critical dates not tested.
Footnotes
In December 1997, the Department contracted with an IV&V contractor to evaluate mission-critical systems identified by Department components and assess the component's Year 2000 preparedness, including the thoroughness of test plans, test execution, and contingency plans.